HHS/OIG, Audit -"Review of Anesthesia, Pharmacy and Supply Services Incident to Other Outpatient Diagnostic Services Processed By Associated Hospital Services," (A-01-01-00542)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Anesthesia, Pharmacy and Supply Services Incident to Other
Outpatient Diagnostic Services Processed By Associated Hospital Services,"
(A-01-01-00542)
June 6, 2002
Complete Text of Report is available in PDF format
(1.49 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that
many hospitals serviced by Associated Hospital Services (AHS) did not establish
adequate internal controls to ensure that claims for anesthesia, pharmacy and
medical supply services used incident to other outpatient diagnostic services
were coded in accordance with Medicare requirements.  This was particularly
true of providers of cardiac catheterization services.  In this regard,
hospitals, that rendered cardiac catheterizations, incorrectly coded pharmacy,
anesthesia and medical supplies using general revenue codes instead of the specific
revenue codes required when billing for services incident to other outpatient
diagnostic services.  As a result, the hospitals overcharged an estimated
$518,000 on claims submitted to AHS.